January 10, 2008

SUSAN M BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Management Advisory – Estimated Supply Chain Management Impact
         Associated with Waste, Trash, and Recycling Services
         (Report Number CA-MA-08-001)

This report presents the results of our review of the reasonableness of the estimated
$5.1 million fiscal year (FY) 2005 supply chain management (SCM) impact1 associated
with the U. S. Postal Service’s national contracts for waste, trash, and recycling services
(Project Number 06YG021CA000). We performed this review under the Value
Proposition Agreement dated October 7, 2005. It is our third and final report under the
agreement which covers the reasonableness of selected SCM impact methodologies
and calculations.

                                                Background
The Postal Service updated its approach to waste, trash, and recycling services
contracts in FY 2004. Prior to this initiative, many of these contracts were local verbal
agreements. During FY 2004, the four Supply Management Purchasing Service
Centers (PSCs) began a systematic review of these contracts in their geographical
areas of responsibility. This review was designed to reduce trash removal costs and
receive maximum recycling rebates for recyclable items. Converting numerous local
agreements into regional type contracts, this initiative was designed to leverage Postal
Service spending for these services, reduce the number of suppliers, consolidate
contracts, right size container requirements, and increase recycling locations and
revenues.

There were more than 100 Postal Service waste, trash, and recycling contracts
associated with the FY 2005 SCM impact calculation. Most of these were firm-fixed
price contracts with varying terms and renewal options. A few were share-in-savings
contracts where the contractor’s share in the savings was contingent upon certain
conditions or time limits. For FY 2005, the Postal Service claimed $5.1 million in SCM
impact related to 16 waste, trash, and recycling services projects. The impact was
calculated by comparing baseline prices to new contract negotiated prices. The
baseline prices were determined using various methods from previous contracts and/or


1
 SCM impact is the resulting value of a planned and deliberate action taken to reduce purchase and ownership
costs; avoid a higher cost that would have otherwise been incurred; improve the total value of a purchased product,
service, or activity; or generate revenue.
Estimated Supply Chain Management Impact                                                            CA-MA-08-001
 Associated with Waste, Trash, and
 Recycling Services

market analysis. These methods included using (1) prior costs, (2) reverse auction
prices, and (3) market research.

The four PSCs transitioned into two Services Category Management Centers (CMCs) in
January 2006. This realignment allowed the newly formed CMCs to further apply SCM
techniques and to strategically manage and source commodities the PSCs formerly
administered. The new Eastern Services CMC in Memphis, Tennessee became
responsible for solid waste management (trash removal and recycling services) for the
Postal Service.

                            Objective, Scope, and Methodology

Our objective was to review the reasonableness of the estimated FY 2005 SCM impact
for waste, trash, and recycling services. To achieve our objective, we interviewed
various Postal Service officials, including contracting officers (COs) and personnel
responsible for preparing and reviewing the SCM impact reports. We reviewed the
16 waste, trash, and recycling service projects. There were numerous contracts under
each project, all similar except for the supplier. For each project, we reviewed the
methodology used to estimate the SCM impact for at least one of the associated
contracts. We reviewed data associated with 19 contracts for which the Postal Service
claimed an SCM impact totaling $2.4 million.

We also assisted the Postal Service by participating in a study of backhauling2
undeliverable standard mail for recycling purposes. As part of the study, we reviewed
backhauling practices at the Houston Processing and Distribution Center. The results
of the study are in the Other Matters section of this report.

We conducted this review from December 2006 through January 2008 in accordance
with the President’s Council on Integrity and Efficiency, Quality Standards for
Inspections. We discussed our observations and conclusions with management
officials on October 29, 2007, and have included their comments where appropriate.

                                        Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this review.




2
 Equipment trucks and mail trucks are used to backhaul recyclables, which are clearly placarded as recyclables.
Recycling does not have any effect on transportation schedules and does not hinder or delay the mail.




                                                         2
Estimated Supply Chain Management Impact                                                                 CA-MA-08-001
 Associated with Waste, Trash, and
 Recycling Services


                                                      Results

We were unable to opine on the reasonableness of the estimated FY 2005 SCM impact.
The methodologies used to estimate the impact were fair and reasonable and we were
able to validate $1.5 million of the $2.4 million impact reviewed. However, we could not
accurately verify baseline data for six of the 19 contracts. Supply Management staff
stated they based several of their contract baselines on oral agreements for which the
Postal Service paid the vendor with money orders or credit cards and for which they
could not locate detailed data reports. We detail the results of our review in
Appendix A. Additionally, we noted the following contract management issues that
impacted our ability to express an opinion on the estimated impact.

Contract Management Issues

The Postal Service’s Supplying Principles and Practices3 state that contract
management activities include keeping contract documentation up to date. However,
the payment records or receipts could not be located for six of the 19 contracts
reviewed. This was mainly due to the transfer of files from the various PSCs to the
Eastern Service CMC. Additionally, in some cases COs did not have adequate
payment reports to assist in monitoring the contract payments. The Postal Service used
four methods to pay contractors: (1) money orders, (2) credit cards, (3) payments made
directly by Postal Service accounting, and (4) the eBuy4 process. Postal Service
officials stated Postal Service accounting made the majority of payments and these
were the only payments they could possibly track by contract number. They prefer to
use the eBuy process; however, when they do, COs cannot obtain payment reports by
contract number from the system. Supply Management officials have worked with eBuy
system administrators but the reports are not yet available. Because the payment
methods do not ensure the ability to track payments by contract number, we could not
obtain adequate payment documentation for several of the contracts. In total, we could
not validate $1,040,212 of the payments. We will report this amount as disbursements
at risk in our Semiannual Report to Congress.

In addition, for the contracts included in our review, the contract file documentation did
not clearly reflect that the Contracting Officer Representatives (CORs) had received
COR training. CORs should manage and oversee the contract requirements since they
are usually on-site and should be knowledgeable of the daily workload. The CORs are
supposed to monitor the work, forward vendor invoices for payment, receive and
deposit the recycling revenue payments, and provide status reports to the CO. COs are
responsible for ensuring the CORs are adequately trained and are retaining copies of
signed designation letters and certificates of training or other proof of training in the


3
 Supplying Practices, Process Step Three - Selecting Suppliers
4
 eBuy is the Postal Service’s Enterprise Tool for requisition workflow approval and catalog ordering of goods and
services. Within the eBuy application, there is an electronic invoice certification process referred to as Pos-N-Certify.




                                                            3
Estimated Supply Chain Management Impact                                                  CA-MA-08-001
 Associated with Waste, Trash, and
 Recycling Services

contract file.5 Supply Management personnel stated they did not ensure that CORs
were properly trained because of the volume of the waste, trash, and recycling
contracts. During the review, they issued a memorandum requiring COs to ensure
CORs receive the proper training.

When recycling revenue payments are received, CORs should deposit the checks into
Account Information Xxxx xxx, xxxx xx Xxxxx Xxxxx, Xxxxx, Xxxx Xxxx, xxx Xxxxx
Xxxxxxxxxxx. Once they deposit the money, it cannot be tracked by contract number
and loses all contract identity. We were only able to verify recycling revenue receipts by
contract number if the COR maintained copies of the checks. On several occasions the
COs recommended that we contact the supplier to ascertain how much they had paid
the Postal Service. None of the COs or CORs for the 11 recycling contracts included in
our review had validated the tonnage or volume, the number of pickups, payment
calculations, or proof that payments were made according to the contract requirements.
In six of the 11 contracts reviewed, the CO was not even aware of who the COR was or
knowledgeable about the contract revenue.

Without adequate contract management, there is increased risk of the Postal Service
paying for waste, trash, and recycling services that are not performed or not collecting
the appropriate recycling revenue.

This report focuses on issues surrounding the FY 2005 SCM impact. Since that time,
the Postal Service has been working to better shape the focus and market knowledge
for this commodity and to develop best practices. In February 2006, the Postal Service
recognized the need to consolidate management of these contracts to one office to
provide a more uniform national approach. Supply Management personnel believe this
has led to a much more consistent system of identifying SCM impact results. In
addition, the Eastern Services CMC has added supplier reporting requirements to
contracts and has validated the names of the current CORs for all contracts expiring
through calendar year 2008. Supply Management planned to conduct quarterly
information sessions with the CORs beginning in late 2007. We believe these actions,
and the recommendations described below, should strengthen waste, trash, and
recycling services contract management.

To further strengthen the contract management over waste, trash, and recycling
services contracts, we recommend that the Vice President, Supply Management,
ensure the Eastern Services Category Management Center:

1. Develops standardized procedures for file management and payment tracking for
   waste, trash, and recycling services contracts.
2. Develops tracking mechanisms that allow for payment reports by contract number
   for waste, trash, and recycling services contracts.
5
    Management Instruction PM-610-2001-1, Contracting Officer’s Representative Program.




                                                         4
Estimated Supply Chain Management Impact                                             CA-MA-08-001
 Associated with Waste, Trash, and
 Recycling Services


3. Develops reports and procedures that adequately account for recycling contract
   revenue.
4. Provides Contracting Officer Representatives for waste, trash, and recycling
   services contracts with adequate policies, procedures, and instructions to manage
   these complex contracts.
.
Management’s Comments

Management generally agreed with the four recommendations. The Eastern Services
CMC is reviewing and reworking the contracts they manage to ensure the files and
required documentation are consistently maintained and organized. The CMC is
working to develop and pilot a database during FY 2008 to input waste, trash, and
recycling services contract information and assist with payment and rebate tracking.
Also, during future requirements planning for automated systems, they will consider
adding functionality to allow payment and revenue reporting by contract number.
Additionally, the CMC developed a training initiative called “Trash Talk” to train CORs
on Postal Service policy and procedures. The first session was conducted in the first
quarter of FY 2008 and included CORs assigned to contracts expiring on or before
December 2008. Future “Trash Talk” sessions will include CORs assigned to contracts
expiring in later years and will be held quarterly to provide ongoing instruction and a
discussion forum to improve the management of waste, trash, and recycling contracts.
Management’s comments, in their entirety, are included in Appendix B of this report.

Evaluation of Management’s Comments

Management’s comments are responsive to the recommendations and the actions
taken and planned should correct the issues identified.

                                                Other Matters
Xxxxxxx xxxxxxxx xxx xxxxxxxxx xxx xxxx xxx xxxxxxx, xxxxxxxx xxxxxxxxxxx
xxxxxxxxxxx, xxxxxx xxxxxxxx xxxx xx xxxxxxx xxx xxxxxxxx xx xxxxxxxxxxx
xxxxxxxxxxxxx xxxxxxxx xxxx xxx xxxxxxxxx xxxxxxxx. xxx xxx xxxxx xxxxxxxxx xxxx
xxxxx xxxxx x xxxxxxxx xxxx xx xxxx xxx xxxxxxxx xxxxxx xx xxx xxxxxxx. xx x xxxxxx
xx xxxx xxxxxxx xxx xxx xxx xxxxxxxx x xxxx xxxx xxxxxxxx xxxxxxxxxxx
xxxxxxxxxxx,xxx xxxx xxxxxx xxxxxxx xxxxxx xx xxxxxxxxx xxxxxxx,xxxxxxxxxx xxx
xxxxxxxxx xxxx xxxxxxxxxxxxx xxxxxxxx, xxxxxxxx xxxxxx xxxxxxxxxx xxxxxxxxxxxxx
xxx xxx.

Xxxxxx xxxxxx xxx xxxxxxxx xxxx, xxx xxxxx xxxx xxxxx xxxxx xx xxxxxxxxx xxxxx xx
xxx xxxxxxx6 xxxx xxxxxxxxxx xxxxxxxx xxxxxxxxxx xx xxxxx. xxx xxxxxxx xx xxxxx
xxxxxx xxx xx xxxxxxxx xx xxxxxxxxxx xxxxx xxx xxxxxx xxxxxxxx xxxxxxx xx xxx
6
    xx xxxxxxx xxxxx xx xxxxxxxxxx, xxxxxxx; xxxxxxx, xxxxx; xxx xxxxxx, xxx xxxx.




                                                           5
Estimated Supply Chain Management Impact                                   CA-MA-08-001
 Associated with Waste, Trash, and
 Recycling Services

xxxxxxxx xxxxxxx. xx xxxxxxxx xxx xxxxx xx xxx xxxxxxxx xxxx xxxxxxxx xxxx
xxxxxxxxxxx xx xxxxxxxxx xx x xxxxxxxx xxxx xxxxx xx xxxx xx xxxxxxxx xxxxx xx xxx
xxxxxxxxx xx xxx xxxxxxx. xx xxxx xxxx, xxx xxxxxxxxx xxxxxxx xxxxxxxxx xxxx xxx
xxxxxxxxxx xxxxxxxx xxxxxxxx xxx xxxxxxxxxx xxxxxxxxxx xxxxxxxxxxx xxxxx.

xxx xxxx xxxxxxx xxxxxxxxxx xxx xxxxxxxxxxx xx xx xxxxxxx xxxxxx xxx,xx x xxxxxx,
xxx xxxxxxxxxxxxx xxxxxx xxx xxxxxxxx xxxxxx xxxxxxx xx xxxx x xxxx xxxxxxxxx xxxxx
xx x xxxxxxxxxx xxxx. xxxxxxxxxxx xxxxxxx xx xxxx xxxx xxxxxxxxx xxxxx xxx xxxxxxxx
xxxx.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judy Leonhardt, Director,
Supply Management, or me at (703) 248-2100.


 E-Signed by Darrell E. Benjamin, Jr
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: H. Glen Walker
    Lynn Sartain
    Marie K. Martinez
    Katherine S. Banks




                                           6
Estimated Supply Chain Management Impact                                  CA-MA-08-001
 Associated with Waste, Trash, and
 Recycling Services


                                           APPENDIX A. SUMMARY RESULTS




                                                  Redacted




                                                            7
                                                 Restricted Information
Estimated Supply Chain Management Impact                            CA-MA-08-001
 Associated with Waste, Trash, and
 Recycling Services




                                            Redacted




                                                      8
                                           Restricted Information
Estimated Supply Chain Management Impact                            CA-MA-08-001
 Associated with Waste, Trash, and
 Recycling Services




                                            Redacted




                                                      9
                                           Restricted Information
Estimated Supply Chain Management Impact                            CA-MA-08-001
 Associated with Waste, Trash, and
 Recycling Services




                                               Redacted




                                                     10
                                           Restricted Information
Estimated Supply Chain Management Impact                       CA-MA-08-001
 Associated with Waste, Trash, and
 Recycling Services


              APPENDIX B. MANAGEMENT’S COMMENTS




                                                11
                                      Restricted Information
Estimated Supply Chain Management Impact                       CA-MA-08-001
 Associated with Waste, Trash, and
 Recycling Services




                                                12
                                      Restricted Information
